CERTIFICATE OF COMPLIANCE
No. 19-766

State of North Carolina,

Petitioner,

James Harold Courtney, III,

Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Reply in
Support of Petition for Writ of Certiorari contains 2,551 words, excluding the parts
of the Petition for Writ of Certiorari that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 7, 2020.

Caryn Devins Strickland
